OIG Audit Report 05-14
Drug Enforcement Administration Annual Financial Statement
Fiscal Year 2004
Audit Report No. 05-14
March 2005
Office of the Inspector General
Commentary and Summary
This audit report contains the Annual Financial Statement of the
Drug Enforcement Administration (DEA) for the fiscal years ended September 30, 2004, and September 30, 2003.  Under the direction of the Office of the Inspector General (OIG), KPMG LLP performed the DEA audit.  The audit resulted in an unqualified opinion on its FY 2004 financial statements.  An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and the results of the entitys operations.  For FY 2003, the DEA also received an unqualified opinion on its financial statements (OIG Report No. 04-20).
The Independent Auditors Report on Internal Control over Financial Reporting identified one repeat reportable condition in the area of information systems.  These issues were initially reported in FY 2001 and result from continued weaknesses in the area of general access controls.  Although the DEA has made progress in addressing some of the prior year deficiencies, improvements are still needed to ensure the security and reliability of financial or program data.
In its Report on Compliance and Other Matters, the auditors reported no issues and concluded that the DEAs financial management systems complied with the requirements of the Federal Financial Management Improvement Act (FFMIA) of 1996.
The OIG reviewed KPMGs report and related documentation and made necessary inquiries of its representatives.  Our review, as differentiated from an audit in accordance with U. S. generally accepted government auditing standards, was not intended to enable us to express, and we do not express, an opinion on the DEAs financial statements, conclusions about the effectiveness of internal control, conclusions on whether the DEAs financial management systems substantially complied with FFMIA, or conclusions on compliance with laws and regulations.  KPMG is responsible for the attached auditors report dated October 22, 2004, and the conclusions expressed in the report.  However, our review disclosed no instances where KPMG did not comply, in all material respects, with generally accepted government auditing standards.